TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Employee Plans Noncompliance Referrals
                     Are Productive Sources of Work, but
                   Processing Controls Need to Be Improved



                                      September 24, 2007

                              Reference Number: 2007-10-185




  This report remains the property of the Treasury Inspector General for Tax Administration (TIGTA) and
   may not be disseminated beyond the Internal Revenue Service without the permission of the TIGTA.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 September 24, 2007


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Employee Plans Noncompliance Referrals Are
                                 Productive Sources of Work, but Processing Controls Need to Be
                                 Improved (Audit # 200610023)

 This report presents the results of our review of the Employee Plans (EP) function’s process for
 controlling and evaluating referrals of noncompliance. The overall objective of this review was
 to determine whether this process ensured the most productive referrals1 were selected by the
 EP Classification office for examination. The Director, EP, requested that we assess this
 process.
 The Internal Revenue Service (IRS) receives referrals throughout the year when there are
 questions or concerns that employers or pension plan sponsors may not be complying with
 Internal Revenue Code sections governing employee benefit plans. This audit was conducted as
 part of the Treasury Inspector General for Tax Administration Office of Audit Fiscal Year 2007
 Annual Audit Plan.

 Impact on the Taxpayer
 Referrals were a productive source of EP function examinations because they had among the
 highest total additional assessments and average assessment per return. These assessments
 provide a means for bringing pension plans back into compliance with the tax laws and avoid
 jeopardizing the tax-exempt status of the plans or taxpayers’ retirement savings. However, there
 is still a risk that potentially productive referrals are not being examined, and there were delays
 in processing and evaluating a large number of referrals. Improved controls in these areas will


 1
     Defined as those referrals having the most potential for noncompliance.
                 Employee Plans Noncompliance Referrals Are Productive Sources
                      of Work, but Processing Controls Need to Be Improved



provide greater assurance that pension benefits will be available when needed by plan
participants who are depending on them.

Synopsis
Overall, referrals demonstrated favorable results when compared to other examination sources
during Fiscal Years 2004 through 2006. For example, the change rate2 for referral cases
was between 18 percent and 30 percent higher than that for EP function examinations as a whole.
EP function management has made improvements to enhance referral processing. For example,
EP function management directed that, starting in February 2007, referrals were to be distributed
as part of the regular workload of EP Examination function groups, in lieu of being considered
discretionary work. In addition, a new project for low-dollar referrals sent from the Department
of Labor was implemented. These referrals were previously closed without action because of the
low dollar amount but are now processed through correspondence contacts that usually result in
additional tax assessments. While EP function management has made improvements, additional
actions could be taken to improve key controls used in processing referrals. These include
1) providing better assurance that potentially productive referrals are being examined,
2) ensuring classification specialists and Examination function field groups timely process
referrals, and 3) improving feedback to the Department of Labor on the quality of referrals.
Field group managers have the discretion to close referrals with no further action, either before
or after they are assigned to an examiner. We reviewed 56 referrals the IRS had closed after
deciding not to start an examination; for 13 (23 percent), the IRS did not provide an explanation
for closing the referral. As a result, we could not determine if criteria for taking no further action
were appropriately applied.
Within the EP Classification office, there were delays in classifying referrals. For example,
management data for 5323 of the 851 referrals closed by Examination function field groups
during Fiscal Years 2004 through 2006 showed the average time to classify the referrals was
78 calendar days, well beyond the 30 business-day (equivalent to approximately 45 calendar
days) time period used to evaluate the success of referral processing. The delays also extended
into the Examination field groups. Management data from Fiscal Years 2004 through 2006
showed it took an average of 326 calendar days to evaluate and close cases originating from
referrals compared to only 278 calendar days to evaluate and close cases originating from all
sources during the same period.


2
  The change rate is measured by calculating the percentage of returns on which noncompliance is found and the
plan sponsor is required to correct the pension plan to bring it into compliance with the law in form or operation.
3
  A total of 851 referrals were closed during this period. However, management data were either missing or
inconsistent for 319 cases.
                                                                                                                      2
                Employee Plans Noncompliance Referrals Are Productive Sources
                     of Work, but Processing Controls Need to Be Improved



In June 2003, the IRS and the Department of Labor executed a Memorandum of Understanding
that sets forth procedures for coordinating examination and litigation activities between the two
agencies. Part of the Memorandum requires that both agencies provide one another with
information for evaluating referrals and showing whether a referral resulted in an examination
and/or an additional tax assessment.4 One area of concern expressed by Department of Labor
staff was the lack of IRS feedback on the ultimate disposition of referrals once they are sent to an
IRS Examination function group. EP function management developed a Department of Labor
Case Assignment Sheet to meet the requirement to document either the reason(s) for not
selecting a referral for examination or the amount of any additional tax assessed. In addition to
providing feedback on specific referrals, this information allows the Department of Labor to
update its enforcement tracking database and assess the usefulness of referrals sent to the IRS for
audit consideration. However, EP Examination field groups did not always return the Case
Assignment Sheets.

Recommendations
We recommended the Director, EP, 1) require group managers to adequately document the
reason for closing a referral without an examination; 2) ensure referrals are timely processed;
3) ensure the IRS is meeting the requirement to provide feedback to the Department of Labor on
the results of the referrals closed by EP Examination function groups; and 4) monitor key
performance indicators, such as total closures, to determine whether changes in the method of
distributing referrals have increased the volume of referrals examined.

Response
IRS management agreed with our recommendations and provided planned actions to address
them. These actions include reviews and tracking mechanisms to ensure Examination function
field staff adhere to all documentation and timeliness requirements. For example, the
EP Classification office manager plans to complete quarterly reconciliation reviews of the
referral database and conduct timely workload reviews of assigned inventory. In addition, the
EP function plans to include statistical data on referrals in regular quarterly reports, which will
allow for monitoring the progress of referrals worked using standard business measures.
Management’s complete response to the draft report is included as Appendix IV.




4
 The IRS may assess taxes that are reported on Return of Excise Taxes Related to Employee Benefit Plans
(Form 5330).
                                                                                                          3
             Employee Plans Noncompliance Referrals Are Productive Sources
                  of Work, but Processing Controls Need to Be Improved



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                        4
                    Employee Plans Noncompliance Referrals Are Productive Sources
                         of Work, but Processing Controls Need to Be Improved




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Improving Key Controls Would Provide Better Assurance That All
          Potentially Productive Referrals Are Timely Selected and Examined .........Page 4
                    Recommendations 1 and 2: ..............................................Page 9

                    Recommendations 3 and 4: ....................................................... Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Management’s Response to the Draft Report. .....................Page 15
      Employee Plans Noncompliance Referrals Are Productive Sources
           of Work, but Processing Controls Need to Be Improved




                      Abbreviations

EP              Employee Plans
IRS             Internal Revenue Service
                      Employee Plans Noncompliance Referrals Are Productive Sources
                           of Work, but Processing Controls Need to Be Improved




                                                        Background

The Internal Revenue Service (IRS) receives referrals throughout the year when there are
questions or concerns that employers or pension plan sponsors may not be complying with
Internal Revenue Code sections governing employee benefit plans. The Employee Plans (EP)
function within the Tax Exempt and Government Entities Division is responsible for
administering provisions of the Internal Revenue Code to ensure pension plans meet all
requirements for tax-exempt status. Examples of the benefits of tax-exempt status include:
•   The income of the plan is exempt from Federal taxes.
•   Contributions to and expenses incurred by the plan sponsor are tax deductible.
•   Participants are not taxed on their benefits/contributions until distributions are received from
    the plan.
The referrals originate from a variety of sources both within and outside the IRS. For example,
other IRS business functions prepare referrals if potential noncompliance is identified when
employees are performing day-to-day business activities. Most referrals received from sources
outside the IRS originate from the Department of Labor (see Figure 1), but sources also include
Congressional inquiries, media leads, and referrals from other third parties.
     Figure 1: Total EP Function Referrals Received (Fiscal Years 2004 – 2006)
                                  2,000
                                                                1,815
                                          1,603
                                                                                          1,547
                                  1,500
                Total Referrals




                                                                          1,016                     851
                                  1,000
                                                  768

                                   500


                                     0
                                            FY 2004                FY 2005                     FY 2006

                                                   Departm ent of Labor    All Other Sources


             Source: Returns Inventory Classification System.1 FY = Fiscal Year.



1
 We did not verify the accuracy of this information. The Returns Inventory Classification System provides users
with access to return and filer information related to the filing and processing of employee plans, exempt
organizations, and government entities forms.
                                                                                                          Page 1
                                 Employee Plans Noncompliance Referrals Are Productive Sources
                                      of Work, but Processing Controls Need to Be Improved



Referrals of noncompliance are generally processed and evaluated by classification specialists
who review them to determine whether they have examination potential. The staff consists of
employees with prior Examination function field experience and appropriate tax law training.
Referrals with significant potential for changes to plan form, operation, and tax are typically
selected for examination.
Once selected, the referrals are assigned to field groups for further analysis to determine whether
retirement plans comply with all Internal Revenue Code provisions to protect plan assets and
participants’ benefits. Field groups may conduct examinations based on the information
provided. If their analyses determine examinations are not warranted, groups close referrals with
no further action. Field groups may also close referrals if existing workload or the amount of
time allowed by law would not permit the examination to be completed timely.
The number of referrals EP Examination function field groups audit each fiscal year is related to
priorities established in the annual work plan prepared by EP function management. As shown
in Figure 2, for Fiscal Years 2004 through 2006, the EP Examination function’s primary
emphasis was its Risk Assessment project, which accounted for over 75 percent of all completed
EP function examinations during this 3-year period. Under the Risk Assessment project, EP
Examination function staff categorized qualified pension plans in distinct market segments and
conducted tests to identify segments having the highest degree of potential noncompliance.
    Figure 2: Totals of All Closed EP Function Examinations and Totals of Closed
          Risk Assessment Project Examinations (Fiscal Years 2004 – 2006)
                               10,000

                                9,000
         Closed Examinations




                                                                      8,230
                                          7,910
                                8,000
                                                                      6,829                   7,614
                                7,000
                                          6,372
                                6,000
                                                                                              5,718
                                5,000
                                          FY 2004                    FY 2005                 FY 2006

                                                    Total Closed EP Function Examinations
                                                    Closed Risk Assessment Project Examinations

       Source: Audit Information Management System2 Report 20 (Fiscal Years 2004 - 2006).
       FY = Fiscal Year.


2
 We did not verify the accuracy of this information. The Audit Information Management System provides an
automated inventory and activity control for active examination cases.
                                                                                                       Page 2
              Employee Plans Noncompliance Referrals Are Productive Sources
                   of Work, but Processing Controls Need to Be Improved



The Director, EP, requested that we assess the EP function’s process for controlling and
evaluating referrals to ensure the most productive referrals (those having the most potential for
noncompliance) are selected for examination. The audit was performed at the EP Classification
offices in El Monte, California, and Baltimore, Maryland, during the period August 2006
through May 2007. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                       Employee Plans Noncompliance Referrals Are Productive Sources
                            of Work, but Processing Controls Need to Be Improved




                                         Results of Review

Improving Key Controls Would Provide Better Assurance That All
Potentially Productive Referrals Are Timely Selected and Examined
Overall, referrals demonstrated favorable results when compared to other examination sources
for Fiscal Year 2004 through Fiscal Year 2006. Statistically, referrals ranked high when
compared to other examination projects in terms of the measures EP function management uses
to track performance. For example, Figure 3 shows the change rate3 for EP function referrals
was between 18 percent and 30 percent higher than that for EP function examinations as a whole.
                      Figure 3: Change Rates for EP Function Referrals and
                   EP Function Examinations Overall (Fiscal Years 2004 – 2006)
                       80
                                                               64.3
                                                                                             65.5
                       60
                              58.8
                                                               42.8
             Percent




                                                                                             47.0
                       40
                              29.0
                       20


                       0
                               FY 2004                        FY 2005                   FY 2006

                                                  Referrals        All EP Programs

          Source: Audit Information Management System Report 20 (Fiscal Years 2004 - 2006).4
          FY = Fiscal Year.

Figure 4 shows referrals were a productive source of examinations because they had among the
highest total additional assessments and average assessment per return. These assessments
provide a means for bringing pension plans back into compliance with the tax laws and avoid
jeopardizing the tax-exempt status of the plans or taxpayers’ retirement savings.




3
  The change rate is measured by calculating the percentage of returns on which noncompliance is found and the
plan sponsor is required to correct the pension plan to bring it into compliance with the law in form or operation.
4
  We did not verify the accuracy of this information.
                                                                                                               Page 4
                 Employee Plans Noncompliance Referrals Are Productive Sources
                      of Work, but Processing Controls Need to Be Improved



               Figure 4: Total and Average Additional Assessments for
        Selected EP Function Examination Projects (Fiscal Years 2004 – 2006)5

                                                         Total           Fiscal      Average
                  Fiscal                               Additional         Year      Assessment
                   Year            Project            Assessments        Rank6      per Closure
                   2006          General Risk           $5,839,645         1              $1,101
                   2005          Assessment             $2,780,838         3               $555
                   2004                                 $1,420,459         2               $254

                   2006         Training Cases             $512,343         5                $928
                   2005                                    $398,533         7                $771
                   2004                                    $135,228         6                $186

                   2006            Referrals              $524,456          4              $1,754
                   2005                                  $1,001,782         4              $5,245
                   2004                                   $541,684          3              $4,836

                  2006       Reported Funding        $1,543,232        2             $4,662
                  2005           Deficiency7            $32,519       15               $215
                  2004                               $1,478,254        1            $17,598
               Source: Audit Information Management System Report 20 (Fiscal Years 2004 - 2006).8

The value of working referrals has prompted EP function management to make changes to
further improve the processing of referrals within the Examination function. For example,
EP function management directed that, starting in February 2007, referrals were to be distributed
as part of the regular workload of EP Examination function groups. The prior process
considered referrals to be discretionary work, which meant they were sometimes given a lower
priority by the Examination function field groups.
In addition, a new project for low-dollar referrals sent from the Department of Labor was
implemented. These referrals had been previously closed without action because of the low
dollar amount but are now processed through correspondence contacts that usually result in
additional tax assessments. This change was based on EP function management’s concern that



5
  These programs were selected because they accounted for a significant portion of total additional tax assessments
during Fiscal Years 2004 – 2006.
6
  We determined the Fiscal Year Rank based on the total additional assessments for each Project as shown in Audit
Information Management System Report 20.
7
  Forms 5500 (Annual Return/Report of Employee Benefit Plan) that report a funding deficiency. Classifiers in the
EP function perform research on the returns and attempt to contact plan sponsors to request an explanation and/or
resolution of the funding deficiencies.
8
  We did not verify the accuracy of this information.
                                                                                                            Page 5
                       Employee Plans Noncompliance Reterds Are Producflve Sources
                            of Wo*, but Processing Controls Need to Be fmpmved



        plan sponsors were not complying with existing regulations for timely depositing plan
        contributions. .
        While EP function management has aheady made improvements, additional actions could be
        taken to improve some of the key controls used in the processing of referrals, including
        (1) providing better assurance that potentially productive referrals are being examined,
        (2) ensuring classification specialists and Examination function field groups timely process
        referrals, and (3) improving feedback to the Department of Labor on the quality of referrals.
        Improved controls in these areas will provide greater assurance that pension benefits will be   ,


        available when needed by plan participants who are depending on them.

        Processes in the Examination function field groups do not ensure ~otentiallv
        productive referrals are being examined
        Field group managers have the discretion to close referrals with no M e r action, either before
    I
    I   or after they have been assigned to an examiner. For example, these actions can be taken if the
    1   manager determines an examination is not warranted or if the number of returns assigned to the
        field group exceeds the number of returns that can be worked timely. We reviewed 56 referrals
        the IRS closed during Fiscal Year 2006 after deciding not to start an examination; for
        13 (23 percent), the IRS did not provide an explanation for closing the referral. As a result,
        (I) we could not determine whether the criteria for taking no further action were appropriately
        applied, and (2) there is a risk that potentially productive referrals are not being examined.
        Referrals closed without an examination must be approved by the field group manager.
        However, if the referrals were initiated within the EP function, there is no requirement for
        managers to document the reasons for closing referrals before they are assigned to an examiner.
        We could not determine whether the criteria for closing referrals without an examination were
        appropriately applied for 7 of the above 13 referrals because the 7 referrals originated from
        within the EP function.
        There were a l s o ~ r j r e f e r r a l from
                                                 s    the Department of Labor a n d m f i o m the Small
        Business/Self-Employed Division closed before assignment to an examiner. While EP function
        managers should include an explanation for closing these referrals without an examination, none
        of the four cases contained the required explanation. EP function managers are also required to
        include an explanation for closing referrals that are not examined after assignment to an
        examiner. Two referrals were cIosed in this manner, but neither included the required
        explanation.
        We could not determine why managers did not document the case file to show the reasons these
        remaining 6 of 13 referrals were not examined. Ensuring managers document the reasons for
        closing referrals and following up on any closures that do not include an explanation would
        provide better assurance that all potentially productive referrals are examined and strengthen the
        system of internal controls for EP fhction referrals.


I                                                                                                   Page 6
                 Employee Plans Noncompliance Referrals Are Productive Sources
                      of Work, but Processing Controls Need to Be Improved



Classification specialists and Examination function field groups did not timely
process referrals
One measure used to evaluate the success of referral processing is a 30 business-day (equivalent
to approximately 45 calendar days) time period for determining whether referrals should be
forwarded to an Examination function field group for audit. Once a referral is received in the
field, group managers should immediately assign it to an examiner.
Within the EP Classification office, there were delays in classifying referrals and a lack of
information system data for monitoring the timeliness of actions by classification specialists. For
example, management data for 5329 of the 851 referrals closed by Examination function field
groups during Fiscal Years 2004 through 2006 showed the average time to classify them was
78 calendar days. Nearly 30 percent were closed at least 60 calendar days after receipt by the
EP Classification office, including 8 percent that took more than 6 months to complete
processing.
While referrals are considered highly productive, the classification specialists’ first priority was
analyzing nonreferral sources of work, as specified in the annual work plan, to meet the
inventory needs of Examination function field groups. After completing this work, classification
specialists’ next priority was analyzing referrals and distributing those having the most potential
for change to field groups. EP function management also worked with the Department of Labor
to forward referrals more frequently to avoid receiving large volumes of referrals at one time.
There is also a lack of management information for monitoring the age of classification
inventory because classification specialists did not always enter all required date-related fields
into the EP function system used to manage workload. Of the 851 referrals recorded on the
system, 287 (34 percent) did not include the date the referral was received. Therefore,
EP function management could not monitor how timely these cases were being worked or
whether they met the 30 business-day standard. There were also no routinely generated reports
to identify and monitor cases older than 30 business days.
The delays also extended into the Examination function field groups where field staff did not
evaluate the referrals until they had completed their assigned inventory of nonreferral cases.
Management data for Fiscal Years 2004 through 2006 showed it took an average of 326 calendar
days to evaluate and close cases originating from referrals compared to only 278 calendar days to
evaluate and close cases originating from all sources during the same period. Nearly 75 percent
of the referrals were not closed within 6 months of receipt in the field, including 36 percent that
took over a year to complete.
These processing delays could cause potentially productive referrals to be nonproductive if the
IRS is unable to contact plan sponsors to obtain clarifying information or complete an

9
  A total of 851 referrals were closed during this period. However, management data were either missing or
inconsistent for 319 cases.
                                                                                                             Page 7
                Employee Plans Noncompliance Referrals Are Productive Sources
                     of Work, but Processing Controls Need to Be Improved



examination within the amount of time allowed by law. Also, plans could continue operating in
violation of the law for extended periods of time if the referrals involved issues that would
disqualify plans from retaining their tax-exempt status.
As previously stated, earlier this year, EP function management took action to improve the
processing of referrals within the Examination function. Prior to that, Examination function field
groups received referrals as a supplement to their regular inventory of cases, and field group
managers considered cases originating from specialized projects as higher priority than cases
originating from referrals. However, starting in February 2007, referrals were to be included as
part of examiners’ regular inventory of cases. Incorporating referrals with other workload was
intended to reduce the time needed to start evaluating referrals in the field. EP function
management should determine whether the change in distributing referrals improves both the
number examined and the time needed to evaluate them by using management data currently
available on the Returns Inventory Classification System.

The EP Examination function did not always provide the Department of Labor
with feedback on the quality of referrals
EP function management needs to enhance the existing process to provide better assurance that
the Department of Labor receives feedback on the quality of referrals (such as whether plan
sponsors took needed actions to ensure plans complied with all applicable tax provisions).
In June 2003, the IRS and the Department of Labor executed a Memorandum of Understanding
that sets forth procedures for coordinating examination and litigation activities between the two
agencies. Part of the Memorandum requires that both agencies provide one another with
information for evaluating referrals and showing whether a referral resulted in an examination
and/or an additional tax assessment.10
To identify and resolve issues and areas of concern, EP function management held quarterly
meetings with Department of Labor staff as required. These meetings included discussions on
those areas of the Memorandum of Understanding that needed to be clarified or updated.
One area of concern expressed by Department of Labor staff was the lack of IRS feedback on the
ultimate disposition of referrals once they are sent to an IRS Examination function group.
EP function management developed a “DOL [Department of Labor] Case Assignment Sheet” to
meet the requirement to document either the reason(s) for not selecting a referral for examination
or the amount of any additional tax assessed. In addition to providing feedback on specific
referrals, this information allows the Department of Labor to update its enforcement tracking
database and assess the usefulness of referrals sent to the IRS for audit consideration.



10
  The IRS may assess taxes that are reported on Return of Excise Taxes Related to Employee Benefit Plans
(Form 5330).
                                                                                                           Page 8
              Employee Plans Noncompliance Referrals Are Productive Sources
                   of Work, but Processing Controls Need to Be Improved



EP Examination function field groups did not always return these Assignment Sheets. There is
no control in place to identify instances in which field staff did not return Assignment Sheets
after evaluating referrals. Thus, EP function management had no means of identifying the
referrals for which field groups did not return the Assignment Sheets or quantifying the extent to
which this was occurring. The small number of Assignment Sheets returned also limited
feedback to EP function classification specialists who could use the information to identify
reasons referrals were not selected for examination. In addition, not receiving this information
precluded the Department of Labor from determining the ultimate disposition of referrals, such
as the reason(s) IRS field staff did not work them.

Recommendations
The Director, EP, should:
Recommendation 1: Require group managers to adequately document the reason for closing
a referral without an examination for all cases and ensure documentation standards are being
met.
       Management’s Response: The IRS agreed with the recommendation. The Director,
       EP Examinations, plans to issue a directive to all Area Managers requiring appropriate
       case documentation by the field managers as to why a referral is being surveyed.
Recommendation 2: Ensure referrals are timely processed by:
   a. Enhancing existing management information and providing additional management
      oversight to more effectively monitor the age of referrals in EP Classification office
      inventory and identify over-age referrals.
   b. Reminding EP Classification office staff to enter all required timeliness-related fields in
      the Returns Inventory Classification System database.
   c. Developing a process to measure any change or improvement in the amount of time
      needed to examine referrals once they become part of examiners’ regular inventory.
       Management’s Response: The IRS agreed with the recommendation. The
       Classification office manager plans to complete quarterly reconciliation reviews of the
       referral database, conduct timely workload reviews of assigned inventory, and include
       referrals as a monthly agenda topic during group meetings. The Manager, Exam
       Planning and Programs, plans to include statistical data on referrals in regular quarterly
       reports to the Area Manager, Exam Planning and Review. This will allow the Area
       Manager, Exam Planning and Review, to monitor the progress of referrals worked using
       standard business measures.




                                                                                            Page 9
              Employee Plans Noncompliance Referrals Are Productive Sources
                   of Work, but Processing Controls Need to Be Improved



Recommendation 3: Ensure the IRS is meeting the requirement to provide feedback
(specifically, the Department of Labor Case Assignment Sheet) to the Department of Labor on
the results of the referrals closed by EP Examination function groups.
       Management’s Response: The IRS agreed with the recommendation. The EP
       Classification office plans to transmit the cover sheet and a tracking sheet to the assigned
       examiner when the referral is assigned to a field group and to place a freeze code on the
       Audit Information Management System for the referral. This will preclude the case from
       closing until the Classification office sends the Department of Labor information
       showing the disposition of the case.
Recommendation 4: Monitor key performance indicators, such as total closures, to
determine whether changes in the method of distributing referrals have increased the volume of
referrals examined.
       Management’s Response: The IRS agreed with the recommendation. Each quarter,
       the Manager, Exam Planning and Programs, plans to provide statistical data on referrals
       to the Area Manager, Exam Planning and Review. This will enable the Area Manager,
       Exam Planning and Review, to monitor the progress of referrals worked using standard
       business measures.




                                                                                           Page 10
                 Employee Plans Noncompliance Referrals Are Productive Sources
                      of Work, but Processing Controls Need to Be Improved



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the EP function’s process for
controlling and evaluating referrals of noncompliance ensured the most productive referrals were
selected by the EP Classification office for examination. For several tests, we relied on
information accumulated by the IRS and the EP function in Audit Information Management
System reports and the Returns Inventory Classification System.1 We did not verify the accuracy
of these data because doing so was not necessary to accomplish our audit objective. To
accomplish the objective, we:
I.      Determined whether EP function management had established the processes necessary to
        effectively control and evaluate the referrals of noncompliance received by the EP
        Classification office.
        A. Interviewed EP function management and identified the EP Classification office’s
           procedures for controlling, evaluating, and selecting referrals for examination.
        B. Determined whether EP function referrals were consistently processed at the
           EP function centralized referral evaluation sites in El Monte, California, and
           Baltimore, Maryland.
        C. Interviewed the EP Classification office manager to assess the adequacy of
           management’s system for monitoring referrals.
        D. Interviewed EP function management to assess the adequacy of the feedback the
           Classification office receives from the Examination function groups on the closed
           referrals.
        E. Determined whether opportunities existed for improving the coordination of pension
           funding referrals received from the Department of Labor.
II.     Determined how EP function management measured the success of their process for
        evaluating referrals of noncompliance and whether they had established an effective
        method for measuring the productivity of referrals selected for examination.




1
  The Audit Information Management System provides an automated inventory and activity control for active
examination cases. The Returns Inventory Classification System provides users with access to return and filer
information related to the filing and processing of employee plans, exempt organizations, and government entities
forms.
                                                                                                          Page 11
                 Employee Plans Noncompliance Referrals Are Productive Sources
                      of Work, but Processing Controls Need to Be Improved



        A. Interviewed EP function management to determine what performance measures and
           data they used to evaluate referrals received.
        B. Obtained management information reports to identify trends in referral closures.
        C. Evaluated inventory data to identify all referrals that were surveyed/closed with no
           action either before or after assignment2 for Fiscal Years 2004 through 2006. We
           identified all 82 referrals surveyed in Fiscal Year 2006 and obtained/analyzed closed
           case files for 56 referrals to determine why they were not examined.3
        D. Assessed the effectiveness of EP function management’s method for monitoring the
           productivity of referrals.
        E. Determined whether any causes or factors were inhibiting management from
           monitoring the length of referral processing time in EP Classification offices.
III.    Determined whether the EP function’s process for evaluating referrals of noncompliance
        ensured the referrals selected by Classification offices for examination were productive.
        A. Obtained and analyzed inventory data for all EP Classification office referrals closed
           by Examination function field groups during Fiscal Years 2004 through 2006.
        B. Evaluated inventory data to determine the percentage of time referral examinations
           resulted in a tax change when compared to other types of examination sources such as
           risk assessment returns.
        C. Evaluated inventory data to compare how often the EP Classification office decided
           to take no further action on referrals in comparison to other types of cases the
           Classification office selected for audit, such as Risk Assessment project returns.
        D. Interviewed selected EP Examination function group managers and reviewed the
           Internal Revenue Manual to determine the procedures for controlling, evaluating, and
           selecting EP function referrals received from the EP Classification office for audit.
        E. Interviewed selected EP Examination function group managers to obtain feedback on
           the productivity of the referrals they received from the EP Classification office for
           audit.




2
  Under certain circumstances, returns initially selected for examination may not be examined. These cases may be
closed by survey after approval by the group manager.
3
  For the 82 referrals, there were only 56 case files that contained complete documentation.
                                                                                                         Page 12
             Employee Plans Noncompliance Referrals Are Productive Sources
                  of Work, but Processing Controls Need to Be Improved



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Marjorie A. Stephenson, Lead Auditor
Stephanie K. Foster, Senior Auditor
Steve T. Myers, Senior Auditor
Carol A. Rowland, Auditor




                                                                                    Page 13
             Employee Plans Noncompliance Referrals Are Productive Sources
                  of Work, but Processing Controls Need to Be Improved



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Director, Communications and Liaison, Tax Exempt and Government Entities
       Division SE:T:CL




                                                                                  Page 14
   Employee Plans Noncompliance Referrals Are Productive Sources
        of Work, but Processing Controls Need to Be Improved



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 15
Employee Plans Noncompliance Referrals Are Productive Sources
     of Work, but Processing Controls Need to Be Improved




                                                       Page 16
Employee Plans Noncompliance Referrals Are Productive Sources
     of Work, but Processing Controls Need to Be Improved




                                                       Page 17
Employee Plans Noncompliance Referrals Are Productive Sources
     of Work, but Processing Controls Need to Be Improved




                                                       Page 18
